                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al1030018                                                                            Page 1 of 1



                   OIG received an allegation that an employee of a NSF grantee1 inappropriately used a
          government vehicle for personal recreation. OIG contacted the grantee and confirmed that two
          individuals had been on a temporary assignment for two weeks at a remote location and had no
          access to their personal vehicles. The two individuals used the government vehicle
          inappropriately and without authorization for a recreational activity on their day off. The grantee
          counseled the individuals, who accepted responsibility for their actions, and sent a memorandum
          to all staff reminding them of the government vehicle usage policy.

                    The grantee's actions adequately protect the federal interest, therefore, this case is closed.




NSF OlG Fonn 2 (11/02)
